INFORMATION SECURITY PROGRAM

   National Transportation Safety Board


       Report Number: FI-2007-001
      Date Issued: October 13, 2006
U.S. Department of                                               Office of Inspector General
Transportation                                                   Washington, D.C. 20590
Office of the Secretary
of Transportation


October 13, 2006

The Honorable Mark V. Rosenker
Chairman
National Transportation Safety Board
490 L’Enfant Plaza, SW
Washington, DC 20594

Dear Chairman Rosenker:

This report presents the results of our audit of the National Transportation Safety
Board’s (NTSB) information security program, required by the Federal
Information Security Management Act (FISMA) of 2002. We have also included
our FISMA evaluation submission to the Office of Management and Budget
(OMB) in Enclosure 1.

In fiscal year (FY) 2006, NTSB made a concerted effort to correct security
weaknesses identified in prior years, including establishing a new Chief
Information Officer office, developing a system inventory and a timetable to
complete system security certification reviews, implementing password lockouts
on computers, and providing information security awareness training to NTSB
employees. In addition, NTSB should be commended for having established
capabilities to perform network vulnerability scans and monitor networks for
possible intrusions.

However, continued management attention is needed in several areas:
(1) assessing systems risk and assigning a priority to reviewing and testing
security protection of systems with a higher-risk impact on NTSB operations,
(2) enforcing and following through on the newly established network security
requirements, and (3) identifying systems containing sensitive personally
identifiable information for proper protection. As a result, NTSB’s information
security program in our opinion still has a significant deficiency that should be
reported as a material internal control weakness on the annual Federal Managers’
Financial Integrity Act (FMFIA) report to OMB and Congress.

We are making a series of recommendations starting on page 11 to help NTSB
strengthen its information security program. On September 28, 2006, NTSB
                                                                              2


provided us with its response to a draft of this report. Although NTSB did not
specify whether it concurs with each recommendation, NTSB appears to have
some disagreements. We have included NTSB’s response in its entirety in
Enclosure 4. We added our analysis of the response to each report section as
appropriate.

We appreciate the courtesies and cooperation of NTSB representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-6767; David Dobbs, Acting Principal Assistant Inspector General for
Auditing and Evaluation, at (202) 366-0500; or Rebecca C. Leng, Assistant
Inspector General for Financial and Information Technology Audits, at (202)
366-1496.

Sincerely,




Todd J. Zinser
Acting Inspector General

Enclosures (4)
                                                                                                               3



INTRODUCTION
To support its investigative operations nationwide, NTSB has implemented an
information technology (IT) infrastructure that includes communications
networks, computer laboratories, and software application systems at its
Headquarters, 10 regional offices, and Academy. This infrastructure enables
NTSB’s investigators to gather accident evidence, analyze information from voice
and data recorders, assist victims’ family members, and provide accident
investigation results to the public.

This is the third year that independent agencies such as NTSB have been required
to report to the Congress on their information security programs. 1 The
Department of Transportation’s Office of Inspector General (OIG) performed
audits of NTSB’s information security program for FY 2004 and FY 2005. 2 Last
year, we found that NTSB had made limited progress in enhancing its information
security program, and many network vulnerabilities exposed NTSB computers to
unauthorized access from both inside and outside the Agency. As a result, we
suggested to NTSB that its information security program should be reported to
OMB and Congress as a material weakness under the Federal Managers’ Financial
Integrity Act of 1982 and recommended corrective actions, which NTSB
management agreed to do.

In FY 2006, NTSB continued to correct information security weaknesses;
however, it experienced leadership turnovers in the Chief Information Officer
(CIO) office. As a result, the NTSB Deputy Managing Director assumed the role
of the Acting CIO in May 2006 and provided critical leadership during this
transition period. Our objectives for this year’s review were to evaluate (1)
whether system risks were properly assessed and security weaknesses were
reported for correction, (2) the effectiveness of enhanced network security
operations, and (3) the progress made by NTSB in protecting sensitive agency
information.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards as prescribed by the Comptroller General of the
United States, and performed such tests as we considered necessary to detect
fraud, waste, and abuse. Our contribution to NTSB’s annual FISMA report to
OMB appears as Enclosure 1. Our scope and methodology are described in more
detail in Enclosure 2.

1
    FISMA requires the 24 large Federal agencies to report annually to the Congress on their information security
    programs. Two years ago the Office of Management and Budget (OMB) expanded FISMA reporting requirements
    to all departments and agencies subject to the Paperwork Reduction Act of 1995, including NTSB.
2
    OIG Report Number FI-2006-001, “NTSB Information Security Program,” October 7, 2005, and OIG Report
    Number FI-2004-097, “NTSB Information Security Program,” September 28, 2004. OIG reports can be found at
    www.oig.dot.gov.
                                                                                                                       4


RESULTS

System Impact Assessments Need To Be More Thorough To Protect
Against Disruption
NTSB’s information security has improved from last year, but its data and
information systems remain at risk. NTSB did not differentiate its systems by risk
level. The key reason for this is that NTSB did not fully implement policies that
included all requirements of the National Institute of Standards and Technology
(NIST). As a result, NTSB has not prioritized the certification and accreditation
(C&A)3 reviews of its information systems.

Impact Levels of NTSB Systems Need More Review
As part of FISMA, agencies are required to use Federal Information Processing
Standards (FIPS) Publication 199 (“Standards for Security Categorization of
Federal Information and Information Systems,” February 2004) to categorize the
risk impact levels of each of their information systems. FIPS 199 establishes three
potential levels of impact (low, moderate, and high) relevant to securing Federal
information and information systems to adequately ensure the confidentiality,
integrity, and availability of the data. FIPS 199 and 200 4 stress the importance of
(1) prioritizing levels of risk and (2) meeting minimum security requirements
commensurate with the risk level.

Last year we recommended that NTSB assign a high priority to completing the
C&A reviews of its high-risk (most critical) systems. NTSB hired a contractor to
assist it in the risk assessment and has since concluded that it has no high-risk
systems. All six NTSB systems 5 are deemed to have a moderate level of risk for
all three security components—confidentiality, integrity, and availability.

However, NTSB only assessed the risk impact level for three systems—General
Support, Accident Investigation, and Financial Management. It did not perform
specific risk assessment on the other three systems (Telephone, Physical Security,
and Laboratory Environment). NTSB decided that the three systems not assessed
would also merit a moderate risk rating because they used to be sub-components
of the three assessed systems.

3
    According to NIST Special Publication 800–37, “Guide for the Security Certification and Accreditation of Federal
    Information Systems” (May 2004), certification is the comprehensive assessment of the management, operational,
    and technical security controls in an information system, made in support of security accreditation, to determine the
    extent to which the controls are implanted correctly. Accreditation is the official management decision given by a
    senior agency official to authorize operations of an information system and to explicitly accept the risk to agency
    operations.
4
    FIPS 200, Minimum Security Requirements for Federal Information and Information Systems, March 2006.
5
    The six systems are the General Support System, Telephone System, Physical Security System, Laboratory
    Environment System, Accident Investigation System, and Financial Management System.
                                                                                    5


We are concerned that under this assessment scheme, all systems will receive the
same level of security protection, even though some are clearly more sensitive
than others. For example, the Laboratory Environment System, used to analyze
aircraft black-box recordings, should receive a higher level of risk assessment and
security protection than other systems, such as the Telephone Switch System.
NTSB’s laboratory environment contains highly sensitive audio recordings that,
by law, are not to be disclosed to the general public. Further, justification for the
moderate-level categorizations in NTSB’s risk assessments was lacking. For
example, NTSB did not use vulnerability and threat information to support the
security categorizations that it identified for each system, as FIPS 199 requires.

In addition, NTSB’s interpretation of NIST guidance for high-risk impact systems
needs to be reevaluated. According to FIPS 199, the impact on an organization
should be categorized high if “the loss of confidentiality, integrity, or availability
could be expected to have a severe or catastrophic adverse effect on organizational
operations, organizational assets, or individuals.”

NTSB management informed us that unlike air traffic control systems, none of its
systems could result in loss of human lives and so are not high-risk impact
systems. We confirmed with NIST that systems with a severe impact on the
Agency’s mission capability and organizational assets, including but not limited to
loss of human lives, should be categorized as high-risk impact systems for security
planning and testing.

NTSB’s response to our draft report indicated that it disagreed that vulnerability
and threat information were not incorporated into its security categorizations. Our
analysis of NTSB’s three risk assessments did not find any vulnerability and threat
data. According to NIST 800-37, the methods used to assess risk include
considering vulnerabilities and threats in the information system. These
vulnerabilities are identified by evaluating the effectiveness of current or proposed
security controls applied to a system. Vulnerabilities resulting from the absence of
these controls provide the basis for determining the agency-level risk posed by the
systems operation. This provides a starting point for NTSB’s overall risk
management process.

The risk assessments also did not show the overall level of risk for each control by
applying the NIST-recommended formula to define risk: RISK = Likelihood x
Magnitude of Impact. The assessment lacked the following information:
likelihood of occurrence, threat-source identification, and risk level matrix to
conclude their systems impact level. This analysis is needed for agency officials to
properly assess risk and categorize their systems in accordance with FIPS 199,
which states that security categories are to be used in conjunction with
vulnerability and threat information in assessing the risk to an organization.
                                                                                                               6



Unless NTSB performs more thorough risk assessments, it may be
underestimating the impact these systems could have on its operations and mission
if they were to be compromised. Further, it cannot be assured that NTSB has
implemented the most appropriate set of controls to reduce risk to an acceptable
level.

Planned Systems Security Reviews Need To Be Better Prioritized
OMB requires Federal agencies to establish a certification and accreditation
process for formally authorizing systems to operate. Security certification and
accreditation provides Agency officials with the necessary information to
understand the risks and other factors pertaining to their systems that could
adversely affect mission goals.

Last year, we recommended that NTSB establish a timetable to complete security
certification and accreditation reviews for all of its systems. While NTSB has
established such a timetable, the majority of the systems security (certification and
accreditation) reviews are scheduled to be completed in early FY 2008 (see
Table 1). Accordingly, NTSB will not have any system certification and
accreditation reviews completed in time for next year’s FISMA review, and its
systems could remain vulnerable for another year. NTSB should accelerate its
certification and accreditation review process based on the result of reassessing its
systems’ impact levels.

                Table 1. NTSB Certification and Accreditation
                          Target Completion Dates
                                                                 Certification and Accreditation
      NTSB System                                                      Target Completion Dates
      General Support System                                                            9/30/2007
      Telephone System                                                                 10/31/2007
      Physical Security System                                                         10/31/2007
      Laboratory Environment System                                                    12/31/2007
      Accident Investigation System                                                    12/31/2007
      Financial Management System                                               Completed 7/2004
                                                                         (by the service provider)a
  a
      This system is operated under contract by the Department of the Interior, which owns it; however, NTSB
      retains ownership of the data it contains.



Further, in the timetable NTSB provided, the process for completing the C&A
review for the General Support System was broken down into its individual steps,
such as conducting a risk assessment, creating a security plan, and conducting
contingency planning. For the remaining systems, however, projected completion
                                                                                7


dates for each of these three component steps were not recorded in the plan of
action and milestones (POA&M). Establishing more specific milestone dates
would help ensure that all required steps are identified and accomplished for
prompt completion of its certification and accreditation reviews.

NTSB’s Network Security Has Been Enhanced, but More Is Needed
During FY 2006, NTSB improved its network security operations by
implementing stronger encryption protection for passwords on its network routers,
deploying an Agencywide computer lockout policy, and issuing a series of internal
operations bulletins. In addition, NTSB should be commended for successfully
developing network vulnerability scanning and intrusion-detection capabilities.
However, NTSB has much to do to further improve its network security
protection.

Password Security Requirements Need To Be Enforced
On June 30, 2006, NTSB issued specific operations bulletins to address the
FISMA requirement for minimally acceptable system configuration settings,
including password security settings for more than 400 network users logging onto
the NTSB network. However, we found that the actual configuration of NTSB
network computers—specifically, password settings—did not comply with
NTSB’s security requirements.

For example, the NTSB policy required users to have a minimum password length
of eight characters with a mixture of letters, numbers, and special symbols. While
the minimum password length was configured as eight characters, the requirement
for using a mixture of letters, numbers, and special symbols was not enforced. As
a result, users could set their passwords as “12345678” or “abcdefgh,” which
could be easily guessed or cracked by hackers to gain unauthorized access to
NTSB information systems.

Responding to a draft of the report, NTSB’s Acting CIO stated that “NTSB
Operations Bulletin … recommends … complex passwords.… Our written policy
does not require complex passwords; however, our security policies do enforce
strong password requirements…” On the basis of this enforcement, the Acting
CIO asked that we delete this issue from our draft report.

However, as of August 23, 2006, the network configuration setting for “Password
must meet complexity requirements” was disabled. Clearly, then, password
complexity requirements are not being enforced. Enforcing this basic password
                                                                                                                      8


security practice is included in NIST guidance 6 and is commonly practiced in the
Federal Government and in industry. We recommend, therefore, that NTSB make
the use of complex passwords a clear requirement, and that NTSB enable its
password complexity setting (i.e., passwords not meeting the complexity standard
would be rejected).

NTSB Has Not Completed Work Necessary To Correct Previously
Identified Vulnerabilities
During FY 2006, NTSB established auditing, monitoring, and reporting policies,
which include periodic vulnerability assessments of its IT infrastructure and
mitigation of identified weaknesses. In addition, Agency officials were trained in
using vulnerability scanning software and started periodically assessing their
network in December 2005. However, critical vulnerabilities were not adequately
and promptly remediated.

For example, NTSB’s scanning results from May 2006 identified a total of 17,006
vulnerabilities (827 high, 549 medium, and 15,630 low). 7 Our review of NTSB’s
scanning results found some of the same vulnerabilities that we identified a year
ago.

• Eleven of the high vulnerabilities were password-related, four of which were
  found on the same computers that we had identified during our FY 2005
  FISMA review. 8 These vulnerabilities could result in unauthorized access to
  or modification of business information stored in NTSB computers.

• Seventeen of the high vulnerabilities are related to buffer overflow, 9 11 of
  which were found on the same computers that we had identified during last
  year’s FISMA review. This type of vulnerability could allow remote attackers
  to take full control of the computer, who could then modify data files or
  capture all of a user’s activities displayed on the screen.

OMB requires agencies to develop a POA&M to track, assess, and prioritize
corrective actions taken to address security weaknesses identified. None of the
network weaknesses identified during NTSB’s network scanning were recorded in

6
    NIST SP 800-68: Passwords Must Meet Complexity Requirements. This setting makes it more difficult to guess or
    crack passwords. Enabling this setting implements complexity requirements including not having the user account
    name in the password and using a mixture of character types, including upper case and lower case letters, digits, and
    special characters such as punctuation marks.
7
    High-risk vulnerabilities may provide an attacker with immediate access into a computer system, such as allowing
    execution of remote commands. Medium- and low-risk vulnerabilities may provide an attacker with useful
    information, such as password files, that they can then use to compromise a computer system.
8
    OIG Report Number FI-2006-001, “NTSB Information Security Program,” October 7, 2005.
9
    Buffer overflow happens when more data are put into a buffer or memory holding area than it can handle; this can
    result in a system crash or the overwriting of the data into the adjacent buffers and the hijacking of control of the
    program.
                                                                                  9


the POA&M. As a result, NTSB management may not be effectively assigning
resources toward mitigating the critical vulnerabilities identified.

While NTSB’s response stated that aggressive actions had taken place in
addressing previously identified vulnerabilities, no documentary evidence was
provided to support this assertion. As stated above, our review of NTSB’s
scanning results from May 2006 showed some of these same vulnerabilities on the
same computers that we reported on last year. NTSB also claimed that many of
the vulnerabilities were false-positives associated with network printers or similar
equipment. However, we confirmed in our FY 2005 FISMA review that not all of
the vulnerabilities cited were false-positives.

We agree with NTSB that vulnerabilities, such as buffer overflow, could be
addressed using an automated patch management system like the one deployed by
NTSB. However, a patch to correct the buffer overflow vulnerability referenced
above has been available from the vendor for over 2 years.


NTSB Has Established Intrusion-Detection Capabilities but Must Follow Up
and Investigate Potential Cyber Security Incidents
Responding to last year’s OIG recommendations, NTSB developed policies and
procedures that established the Agency’s cyber security incident monitoring and
response capabilities. These policies and procedures provided basic criteria for
incident classification, timelines for internal and external reporting to United
States Computer Emergency Readiness Team (US-CERT), and responsibilities of
appropriate officials.

Further, in February 2006, NTSB reported having successfully implemented its
intrusion-detection system (IDS) for monitoring and detecting potential cyber
security incidents. However, security events recorded by IDS were not adequately
investigated. Our review of NTSB’s IDS log of activity between March and
August 2006 uncovered signs of potential hacking activities taking place in April
and July. These activities originated from two separate foreign countries and
attempted to compromise the main NTSB web site. Yet NTSB management was
not aware of these events and did not investigate them or report them to US–
CERT. According to NTSB policy, these suspicious and unusual activities should
have been investigated. Overall, NTSB did not provide sufficient evidence to
show that the IDS log was properly reviewed or that potential incidents were
investigated. Without implementing proper procedures to review and investigate
its IDS event log, NTSB has no assurance that security incidents will be identified
and preventive action against cyber attacks taken.
                                                                                                                        10


NTSB responded that it had provided evidence to support that IDS logs were
periodically reviewed. However, the evidence does not support this assertion.
NTSB showed us a printout of the computer screen, containing the names and
size-and-date data of five log files. This does not demonstrate that the files
themselves were actually reviewed.

NTSB’s current IDS also has certain limitations, such as not being comprehensive
enough to detect intrusions from inside the organization. One option for NTSB to
consider is to acquire the IDS service from a “Center of Excellence” 10 when it
becomes available in FY 2008.

NTSB Must Establish Policies and Procedures for Privacy Protection
While NTSB has developed policies to protect portable computers and data from
loss and virus infections and a process to report such losses to both agency
management and to US-CERT, much work remains to meet the requirements of
NIST Special Publication 800-53, “Recommended Security Controls for Federal
Information Systems” (February 2005).

For example, NTSB’s docket system (part of the Accident Investigation System)
contains investigators’ information on aircraft accidents and may contain sensitive
personal information on aircraft victims, mechanics who worked on the aircraft
and approved its airworthiness, or the medical condition of the pilots at the time of
the accident. To adequately secure these data and meet the requirements of the
E-Government Act of 2002, NTSB needs to develop a detailed privacy policy and
procedures. This policy should enable the Agency to perform a methodical
assessment to identify systems processing or storing sensitive personal identifiable
information; incorporate privacy analysis into the C&A process; determine if these
systems require completion of a Privacy Impact Analysis to meet the requirements
of the E-Government Act of 2002; and implement sufficient controls—such as
encryption—to prevent loss, misuse, or unauthorized access to these data. Such
unauthorized access and misuse may put NTSB at risk of compromising people’s
privacy.

In view of the security weaknesses that still require correction, NTSB’s
information security program will need the continued support and attention of its
senior management. Until NTSB corrects these problems, it will not have
assurance that the level of protection being provided to its Agency assets is
adequate. In FY 2007, it will be critical for NTSB to make significant progress in
10
     OMB is currently asking agencies to submit proposals to either become a service provider (Center of Excellence) for
     other agencies or migrate to another agency, from which they would acquire expert security services. Incident-
     response capabilities are part of this initiative, scheduled to be available in FY 2008. According to NIST, monitoring
     threats through IDS is an essential part of incident response; therefore, we assume that service providers for incident-
     response monitoring would include an IDS service. In our opinion, NTSB should become a client of one of these
     other agencies, when these services become available, to enhance its IDS capability.
                                                                                   11


these areas to move forward in implementing an effective information security
program. As a result of this year’s assessment, we are making a series of
recommendations to help NTSB strengthen its information security program.

RECOMMENDATIONS
To strengthen NTSB’s information security program, we recommend that the
National Transportation Safety Board:

1. Improve the quality of the certification and accreditation process by:

   (a) ensuring that NTSB reassess risk levels for each of its systems by
       December 31, 2006, and

   (b) prioritizing certification and accreditation reviews to ensure that all systems
       deemed to have a high risk of impact on NTSB operations are certified and
       accredited by June 30, 2007.

2. Improve NTSB’s network security by:

   (a) updating its password policies to enforce the use of a mixture of letters,
       numbers, and special symbols to construct user passwords to prevent easy
       guessing or cracking;

   (b) configuring network password settings, in accordance with NTSB security
       policies, by October 31, 2006;

   (c) categorizing and incorporating identified vulnerabilities into Agency
       POA&Ms by December 31, 2006;

   (d) taking immediate action to correct highly critical vulnerabilities by
       December 31, 2006;

   (e) establishing (in the short term) procedures to periodically review and
       analyze its IDS event log and report computer security incidents to proper
       authorities in a timely manner; and

   (f) acquiring (in the long term) the intrusion-detection monitoring service from
       a center of excellence when such services become available in FY 2008.

3. Take immediate action to protect systems containing sensitive personal
   identifiable information from unauthorized access and loss by:
                                                                                  12


   (a) developing a privacy policy, including methodologies and criteria for
       identifying systems that contain personally identifiable information;

   (b) incorporating proper security requirements and testing as part of the
       certification and accreditation process, along with performing a privacy
       impact assessment for these systems; and

   (c) implementing controls, including security software, for encryption
       protection of personally identifiable information on laptop computers as
       soon as possible.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
ANALYSIS
A draft of this report was provided to NTSB for comments on September 27,
2006.    The Deputy Managing Director and Acting CIO responded on
September 28, 2006. The response did not specify whether NTSB concurred with
our recommendations. We include the response in its entirety in this report (see
Enclosure 4).

The response focused on describing NTSB’s current processes relating to
assessing systems risk, enforcing password security, remediating vulnerabilities,
and reviewing intrusion-detection logs. We reviewed these processes during our
audit and identified deficiencies, as described in our report. NTSB’s response did
not add any new information for us to evaluate.

Overall, the response indicated that NTSB is satisfied that its actions to strengthen
security are adequate. However, this is the third year we have reviewed NTSB’s
information security program, and although NTSB continues to make progress, its
information security program continues to have significant deficiencies. For
example, NTSB has gone 3 years without completing any system certification and
accreditation review, and is not planning to complete any before September 30,
2007. In its response, NTSB also suggested that we remove a critical finding from
our report concerning not using a mixture of alpha, numeric, and special characters
to construct passwords. Enforcing this basic password security practice is
included in NIST guidance and is commonly practiced in the Federal Government
and in industry. In our view, this response illustrates that NTSB is still not taking
aggressive action to implement an effective information security program.

ACTION REQUIRED
We are requesting that you provide a written clarification of your response to our
recommended actions within 30 days of this report’s issuance. If you concur with
                                                                               13


our recommendations, please indicate the specific action taken or planned for each
recommendation and the target date for completion. If you do not concur, please
provide your rationale. You may provide alternative courses of action that you
believe would resolve the issues presented in this report.
                                                                                                                                                                                                          Enclosure 1
                                                                                                                                                                                                          Page 1 of 4


OFFICE OF INSPECTOR GENERAL CONTRIBUTION TO FISMA
REPORT

                                                                                        Section C: Inspector General. Questions 1, 2, 3, 4, and 5.

                                                                                                               Agency Name:




                                                                                                              Question 1 and 2



1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an
agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this evaluation for each classification below (a., b., and c.).



            To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
            1) Continue to use NIST Special Publication 800-26, or,
            2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53


            Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self reporting by contractors does not meet the
            requirements of law. Self reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.




2. For each part of this question, identify actual performance over the past fiscal year by risk impact level and bureau, in the format provided below. From the representative subset of systems evaluated, identify the
number of systems which have completed the following: have a current certification and accreditation , a contingency plan tested within the past year, and security controls tested within the past year.




                                                                                                  Question 1                                                                                Question 2
                                                                        a.                           b.                             c.                              a.                         b.                         c.
                                                                  Agency Systems             Contractor Systems           Total Number of Systems         Number of systems         Number of systems for Number of systems for which
                                                                                                                                                        certified and accredited    which security controls contingency plans have been
                                                                                                                                                                                     have been tested and     tested in accordance with
                                                                                                                                                                                   evaluated in the last year    policy and guidance




                                    FIPS 199 Risk Impact         Total        Number          Total        Number                        Number          Total       Percent of      Total        Percent of
Bureau Name                                Level                Number       Reviewed        Number       Reviewed       Total Number   Reviewed        Number         Total        Number          Total       Total Number Percent of Total
National Transportation Safety        High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
Board                                 Moderate                           5               0            1              0              6               0            1    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             5               0            1              0              6               0            1        16.7%              0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Agency Totals                          High                              0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
                                      Moderate                           5               0            1              0              6               0            1    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
                                      Low                                0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
                                      Not Categorized                    0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
                                   Total                                 5               0            1              0              6               0            1    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
                                                                                                                                                                                                         Enclosure 1
                                                                                                                                                                                                         Page 2 of 4




                                                                                                                    Question 3

In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.
                                    The agency performs oversight and evaluation to ensure information systems used or operated by a contractor of the
                                    agency or other organization on behalf of the agency meet the requirements of FISMA, OMB policy and NIST guidelines,
                                    national security policy, and agency policy. Self-reporting of NIST Special Publication 800-26 and/or NIST 800-53
                                    requirements by a contractor or other organization is not sufficient, however, self-reporting by another Federal agency may
                                    be sufficient.

                 3.a.               Response Categories:                                                                                                           - Almost Always, for example, approximately 96-100% of the time
                                         - Rarely, for example, approximately 0-50% of the time
                                         - Sometimes, for example, approximately 51-70% of the time
                                         - Frequently, for example, approximately 71-80% of the time
                                         - Mostly, for example, approximately 81-95% of the time
                                         - Almost Always, for example, approximately 96-100% of the time


                                    The agency has developed an inventory of major information systems (including major national security systems) operated
                                    by or under the control of such agency, including an identification of the interfaces between each such system and all other
                                    systems or networks, including those not operated by or under the control of the agency.

                                    Response Categories:
                3.b.1.                   - Approximately 0-50% complete                                                                                                 - Approximately 96-100% complete
                                         - Approximately 51-70% complete
                                         - Approximately 71-80% complete
                                         - Approximately 81-95% complete
                                         - Approximately 96-100% complete



                                                                                                                                                                                           Missing Agency Systems:
                                    If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please list the systems that are missing
                3.b.2.
                                    from the inventory.
                                                                                                                                                                                          Missing Contractor Systems:


                 3.c.               The OIG generally agrees with the CIO on the number of agency owned systems.                                                                                      Yes


                                    The OIG generally agrees with the CIO on the number of information systems
                 3.d.                                                                                                                                                                                 Yes
                                    used or operated by a contractor of the agency or other organization on behalf of the agency.


                 3.e.               The agency inventory is maintained and updated at least annually.                                                                                                 Yes


                 3.f.               The agency has completed system e-authentication risk assessments.                                                                                                 no

                                                                                                                    Question 4


Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate the degree to which the
following statements reflect the status in your agency by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time



                                    The POA&M is an agency wide process, incorporating all known IT security weaknesses associated with information
                 4.a.                                                                                                                                              - Frequently, for example, approximately 71-80% of the time
                                    systems used or operated by the agency or by a contractor of the agency or other organization on behalf of the agency.


                                    When an IT security weakness is identified, program officials (including CIOs, if they own or operate a system) develop,
                 4.b.                                                                                                                                              - Frequently, for example, approximately 71-80% of the time
                                    implement, and manage POA&Ms for their system(s).

                                    Program officials, including contractors, report to the CIO on a regular basis (at least quarterly) on their remediation
                 4.c.                                                                                                                                              - Almost Always, for example, approximately 96-100% of the time
                                    progress.

                 4.d.               CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.                                   - Almost Always, for example, approximately 96-100% of the time

                 4.e.               OIG findings are incorporated into the POA&M process.                                                                          - Rarely, for example, approximately 0-50% of the time"


                                    POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses are addressed in a
                 4.f.                                                                                                                                              - Sometimes, for example, approximately 51-70% of the time
                                    timely manner and receive appropriate resources

Comments: NTSB's POA&M process did not contain all of our recommendations made last year nor NTSB's scanning results


                                                                                                                    Question 5


OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of the agency’s certification and accreditation process, including adherence to existing policy, guidance, and
standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems” (May, 2004) for certification and accreditation work initiated after May, 2004. This
includes use of the FIPS 199 (February, 2004), “Standards for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance for completing
risk assessments and security plans .


                                    Assess the overall quality of the Department's certification and accreditation process.

                                    Response Categories:
                                         - Excellent
                                         - Good                                                                                                                    - Poor
                                         - Satisfactory
                                         - Poor
                                         - Failing


Comments: NTSB has improved its information security program by establishing a systems inventory, establishing an interim POA&M process, and performing risk assessments on three systems. However, NTSB has
not completed any certification and accreditation reviews for its systems.
                                                                                                                                                               Enclosure 1
                                                                                                                                                               Page 3 of 4




                                                                   Section B: Inspector General. Question 6, 7, 8, and 9.

                                                                                        Agency Name:


                                                                                         Question 6

                        Is there an agency wide security configuration policy?
       6.a.                                                                                                                                              Yes
                        Yes or No.

                        Comments: Although NTSB's security configuration standards are incorporated within several NTSB operation bulletins including the IT security,
                        identification and authentication, and access control policies, these bulletins did not explicitly address the individual products listed in 6.b.


                        Configuration guides are available for the products listed below. Identify which software is addressed in the agency wide security configuration policy.
       6.b.             Indicate whether or not any agency systems run the software. In addition, approximate the extent of implementation of the security configuration policy on
                        the systems running the software.




                                                                                                                            Approximate the extent of implementation of the security
                                                                                                                            configuration policy on the systems running the software.

                                                                                                                            Response choices include:
                                                                                                                            - Rarely, or, on approximately 0-50% of the
                                                                                                                              systems running this software
           Product                                                                                                          - Sometimes, or on approximately 51-70% of
                                                                                                                              the systems running this software
                                                                                                                            - Frequently, or on approximately 71-80% of
                                                                  Addressed in agencywide
                                                                                                                              the systems running this software
                                                                          policy?              Do any agency systems        - Mostly, or on approximately 81-95% of the
                                                                                                 run this software?           systems running this software
                                                                                                                            - Almost Always, or on approximately 96-100% of the
                                                                             Yes, No,                                       systems running this software
                                                                              or N/A.                  Yes or No.
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows XP Professional
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows NT
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows 2000 Professional
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows 2000 Server
                                                                                 Yes                      Yes               systems running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Windows 2003 Server
                                                                                 Yes                      Yes               systems running this software
              Solaris
                                                                                 N/A                      No
                                                                                                                                  - Rarely, or, on approximately 0-50% of the systems
              HP-UX
                                                                                 Yes                      Yes               running this software
                                                                                                                                  - Rarely, or, on approximately 0-50% of the systems
              Linux
                                                                                 Yes                      Yes               running this software
                                                                                                                                  - Almost Always, or on approximately 96-100% of the
              Cisco Router IOS
                                                                                 Yes                      Yes               systems running this software
              Oracle
                                                                                 N/A                      No
                                                                                                                                  - Rarely, or, on approximately 0-50% of the systems
              Other. Specify: SQL Server                                         Yes                      Yes               running this software
Comments: According to NTSB officials, the Agency has 10 legacy systems running on Unix and Linux that are in the process of being phased out due to recent
migration to Windows environment. Some of these computer systems, located at the NTSB laboratory, are used to analyze information from voice and data
recorders as part of accident investigations.

                                                                                         Question 7


Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.

                        The agency follows documented policies and procedures for identifying and reporting
       7.a.             incidents internally.                                                                                                            No
                        Yes or No.
                        The agency follows documented policies and procedures for external reporting to law
       7.b.             enforcement authorities.                                                                                                         Yes
                        Yes or No.
                        The agency follows defined procedures for reporting to the United States Computer
       7.c.             Emergency Readiness Team (US-CERT). http://www.us-cert.gov                                                                       Yes
                        Yes or No.
Comments: During the FY 2006, NTSB reported 1 incident of a stolen laptop that potentially contained Personally Identifiable Information. However, there was
no evidence that other potential security events recorded by the Agency intrusion-detection-system were properly investigated.
                                                                                                                            Enclosure 1
                                                                                                                            Page 4 of 4




                                                             Question 8

    Has the agency ensured security training and awareness of all employees, including
    contractors and those employees with significant IT security responsibilities?

    Response Choices include:
    - Rarely, or, approximately 0-50% of employees have sufficient training
                                                                                           - Almost Always, or approximately 96-100% of employees have
8    - Sometimes, or approximately 51-70% of employees have sufficient training           sufficient training
     - Frequently, or approximately 71-80% of employees have sufficient training
     - Mostly, or approximately 81-95% of employees have sufficient training
     - Almost Always, or approximately 96-100% of employees have sufficient training




                                                             Question 9



    Does the agency explain policies regarding peer-to-peer file sharing in IT security
9   awareness training, ethics training, or any other agency wide training?                                           Yes
    Yes or No.
                                                                   Enclosure 2



SCOPE AND METHODOLOGY
To fulfill the requirements under FISMA, we reviewed the NTSB information
security program. We also contributed to NTSB’s FISMA report by answering
questions specified by OMB.

We assessed NTSB’s progress in correcting weaknesses identified in last year’s
FISMA review and interviewed key management officials in the Office of the CIO
to gather information on the implementation status of NTSB’s information
security program. We also reviewed key documentation related to NTSB’s
information security program, such as systems inventory, risk assessments, plans
of action and milestones, network scanning results, and policies and procedures
relating to personally identifiable information.      Based on the collected
information, we provided answers to OMB’s questions on FISMA reporting.

We used the audit methodologies recommended by the Government
Accountability Office and guidelines issued by other Government authorities such
as NIST.

We performed our work between August and September 2006 at NTSB
Headquarters in Washington, DC. This performance audit was conducted in
accordance with Generally Accepted Government Auditing Standards prescribed
by the Comptroller General of the United States and included such tests as we
considered necessary to detect fraud, waste, or abuse.
                                                     Enclosure 3



MAJOR CONTRIBUTORS TO THIS REPORT


Name                        Title

Edward Densmore             Program Director

Henry Lee                   Project Manager

Dr. Ping Sun                Project Manager

Michael P. Fruitman         Communications Adviser

Jim Mallow                  Senior Auditor

Aaron Nguyen                Computer Scientist

Atul Darooka                IT Specialist

Vasily Gerasimov            IT Specialist

Kathleen Huycke             Writer-Editor
                                                                                                            Enclosure 4
                                                                                                            Page 1 of 4
                                         National Transportation Safety Board
                                                            Washington, D.C. 20594



Office of the Managing Director




        September 2 8 , 2006

         Rebecca Leng
         Assistant Inspector General
          for Financial and Information Technology Audits
         Department of Transportation Inspector General
         400 Seventh St. S.W., Room 9210
         Washington, D.C. 20590

                 Thank you for giving me the opportunity to comment on your draft report on the NTSB’s
         information security program, scheduled for release later this month. We appreciate your
         recognition of the concerted effort that the NTSB has made to improve its information security
         program and to correct the deficiencies that were identified in prior years. This letter constitutes
         my comments concerning your draft findings, and I request that this letter be made part of your
         final report.

         Risk Assessment

                Your draft report raises concerns about our application of Federal Information Processing
         Standard (FIPS) 199. Specifically, your draft report states that the NTSB (completed risk
         assessments for only 3 of its 6 systems, and you note that all of our systems have been
         categorized as having the same impact level. The NTSB agrees that careful application of FIPS
         199 is essential for accurately categorizing risk and mission impact level; however, the NTSB
         disagrees that vulnerability and threat information were not incorporated iin our security
         categorizations. Our staff provided the audit team with an overview of the methods used to
         complete our FIPS 199 assessment, and we provided documentation that carefully explains how
         FIPS 199 practices were adhered in our assessment.

                As we explained to your team, our risk assessment was conducted on a census, a 100%
         sample, of information types that make up our information systems. At the time of our risk
         assessment, the NTSB inventory listed 3 systems, including our General Support System (GSS).
         Our careful, high water mark analysis of these information types has led us to categorize each of
         our six systems as having a moderate risk level. Due to NTSB organizational changes and
         changes in managerial and financial oversight, and following suggestions from your office, 3
         new systems were disaggregated from our GSS. As we certify and accredit (C&,A)each of our
         systems, we will produce a system security plan (SSP) for each system that will detail the
         information types that make up the respective information system. Because one or more of the
         SSPs may include fewer information types than were included in the FIPS 199 rislk assessment, it
         is conceivable-though unlikely-that one or more of our systems could be downgraded to a low
                                                                                                     Enclosure 4
                                                                                                     Page 2 of 4


impact system. However, because no new information types will be listed in any system’s SSP,
no system will be upgraded to a high impact system. Therefore, it is likely that all of our
systems will remain categorized at the moderate impact level.

         That said, we recognize your concern that because our systems are all catlegorized at the
same impact level, we could be faced with difficult decisions concerning which systems to C&A
first, or how to provide appropriate protection for our various systems. We wanit to assure you
that this is not the case. Our Program of Action and Milestones (POAM) sets forth a timetable
for completion of C&A activities for each of our systems. This timetable represents our priority
order for conducting our C&A responsibilities. Our GSS SSP will house the vast majority of
common security controls for all of our systems, and therefore remains our highest priority for
C&A.

        We have confirmed with the National Institute of Standards and Technology (NIST) that
there is no inherent expectation that agencies will assign different impact levels to) their systems.
Rather, agencies are required to comply with FIPS 199 definitions and precepts in determining
security categorization levels. The NTSB takes its FIPS 199 responsibilities very seriously.
Consequently, we are concerned that your draft oversimplifies of our view of this process. FIPS
199 defines high impact systems as those for which the “. ..loss of confidentiality, integrity, or
availability could be expected to have a severe or catastrophic adverse effect on organizational
operations, organizational assets, or individuals” (p. 3). The standard further states that a severe
or catastrophic effect is one that might: “(i) cause a severe degradation in or lloss of mission
capability to an extent and duration that the organization is not able to perform one or more of its
primary functions; (ii) result in major damage to organization assets; (iii) result in major
financial loss; or (iv) result in severe or catastrophic harm to individuals involving loss of life or
serious life threatening injuries” (p. 3). The NTSB operates no such systems.

Password Security Requirements

       The NTSB agrees with the best practice of using complex passwords and will incorporate
it wherever possible in the appropriate SSPs. In fact, NTSB Operations Bulletin (210-GEN-003,
Paragraph 7(E) recommends constructing complex passwords by using a combination of letters,
numbers, and special symbols. Our written policy does not require complex passwords;
however, our security policies do enforce strong password requirements for those operating
systems that support such enforcement. The NTSB suggests that this section be deleted from
your report.

Previously Identified Vulnerabilities

        The NTSB agrees that accurate vulnerability analysis and corrective action are critical
components of an effective information security program, and we provided evidence to your
audit team that we took aggressive action in this area. We provided documentation of our
scanning program and procedures including meeting schedules, vulnerability reports, staff
actions, and subsequent reviews detailing vulnerability remediation efforts. Tlhe information
provided demonstrates that immediately after conducting our initial vulnerability scans, the
NTSB began prioritizing the most critical vulnerabilities of password compliance issues and
                                                                                                     Enclosure 4
                                                                                                     Page 3 of 4


patch management. CIO employees were directed to address over 92 computers that we
identified as having password related vulnerabilities. Corrections were made and verified
through subsequent vulnerability scans; however false vulnerability reports were noted and
verified (e.g., one such machine reporting a false positive for administrative user names and
passwords is CVR-CD). Other false positives have been noted as network printers or similar
appliances whose operating systems have been customized by the manufacturer and are unable to
be further modified. Because these appliances have limited CD burning or printing capability
and are protected behind firewalls, the risks have been mitigated.

        As noted in NIST Special Publication (SP) 800-42, Guideline on Network Security
Testing, vulnerability testing may result in many false positive results. Therefore, proper
identification of false positives, and analysis of mitigating controls is essential to this effort. We
explained to audit staff, and we provided documentation to show that the vulinerability scan
reports include many false vulnerability reports. For example, some network printers are
erroneously reported by the software as Cisco routers, and some computers are errloneously listed
as having password vulnerabilities that are not actually present on those computers. Although
your team did not request it, a demonstration of the false positives identified ini prior year IG
scanning results as well as ongoing NTSB vulnerability scanning efforts could quickly resolve
this issue.

       Vulnerabilities such as buffer overflow have been addressed at the NTSB by using an
automated patch management system that deploys security patches to NTSB desktop computers
automatically upon their receipt. An overview of this system was provided to the IG staff as well
as evidence of procurement activities that are currently underway to further augment this
system. Automated patch management is an industry- and NIST-recommended (see NIST SP
800-42) best practice for addressing new security vulnerabilities, which are discovered every
day. This approach enables the NTSB correct or mitigate vulnerabilities such as buffer overflow
as they arise.

Intrusion Detection Capabilities

        We appreciate your recognition that the NTSB implemented its intrusion detection
capabilities in February 2006. However, Operations Bulletin CIO-GEN-005 Incident Response
and Handling Policy and CIO-GEN-009 Auditing, Monitoring, and Reporting Policy were issued
in June 30, 2006. As recommended for medium impact systems by NIST SP 800-53, the NTSB
conducted periodic reviews of our intrusion detection logs. We provided evidence of this to your
audit team.

Privacy

        Your draft report notes that our docket system may contain privacy infomation , and it
notes that the NTSB needs to develop a detailed privacy policy and procedures to ensure these
data are properly protected. Although we do not disagree that more work remains, we note our
Docket Procedures Manual contains our “Redaction User’s Guide” that was published in March
2006. The Guide carefully explains what types of private information must be protected from
                                                                                                Enclosure 4
                                                                                                Page 4 of 4


public release, and it provides detailed procedures for preparing docket materials for public
release in a manner that ensures that private information will remain private.

       Thank you again for the opportunity to provide these comments. We look forward to the




                                          a&/
issuance of your final report.




                                          David L. Mayer, Ph.D.
                                          Deputy Managing Director & Acting CIO
